<html>
<title> - THE NEW FEMA: IS THE AGENCY BETTER PREPARED FOR A CATASTROPHE NOW THAN IT WAS IN 2005?</title>
<body><pre>[Senate Hearing 110-1021]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 110-1021
 
                   THE NEW FEMA: IS THE AGENCY BETTER 
                     PREPARED FOR A CATASTROPHE NOW 
                          THAN IT WAS IN 2005? 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

42-745 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                       Mary Beth Schultz, Counsel
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                Asha A. Mathew, Minority Senior Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk
















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Coleman..............................................    16
    Senator Voinovich............................................    18
    Senator Landrieu.............................................    21
    Senator McCaskill............................................    23
    Senator Pryor................................................    26
    Senator Carper...............................................    29

                               WITNESSES
                        Thursday, April 3, 2008

Hon. Richard L. Skinner, Inspector General, U.S. Department of 
  Homeland Security..............................................     6
Hon. R. David Paulison, Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security........     8

                     Alphabetical List of Witnesses

Paulison, Hon. R. David:
    Testimony....................................................     8
    Prepared statement...........................................    60
Skinner, Hon. Richard L.
    Testimony....................................................     6
    Prepared statement...........................................    39

                                APPENDIX

Chart entitled ``Scorecard for Selected FEMA Preparedness 
  Areas,'' submitted by Mr. Skinner..............................    59
FEMA Response to the Draft Report, March 14, 2008................    81
Charts submitted by Senator Landrieu.............................    98
Get-back information from Mr. Paulison to Senator Voinovich......   100
Get-back information from Mr. Paulison to Senator McCaskill with 
  attachments....................................................   101
Post-Hearing Questions and Responses for the Record from:
    Mr. Skinner..................................................   106
    Mr. Paulison.................................................   112
DHS OIG Report, ``FEMA's Preparedness for the Next Catastrophic 
  Disaster,'' March 2008.........................................   144


                   THE NEW FEMA: IS THE AGENCY BETTER
                     PREPARED FOR A CATASTROPHE NOW
                          THAN IT WAS IN 2005?

                              ----------                              


                        THURSDAY, APRIL 3, 2008

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Carper, Pryor, Landrieu, 
McCaskill, Collins, Voinovich, and Coleman.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning and welcome to this 
hearing. I appreciate the presence of the witnesses 
particularly.
    The question before us today is at the core of our 
Committee's homeland security responsibilities, and it is: Is 
the Federal Emergency Management Agency (FEMA) better prepared 
for a catastrophe now than it was in 2005?
    The answer that is given by the testimony that we will hear 
today seems to be yes. It may be a qualified yes, but it is a 
yes, according to a report that will be presented to us by the 
Department of Homeland Security Inspector General (DHS IG), 
Rick Skinner. The report finds progress in eight of the nine 
areas reviewed, and I think that is something to note with 
appreciation: Moderate progress in five areas, modest progress 
in three, and little or no progress in one.
    While this progress has been made, obviously there is still 
more that remains to be done before FEMA, and our country, are 
prepared for the next catastrophe. And I know that Chief 
Paulison agrees with that as well.
    We only need remember those searing images that were beamed 
live into our homes of a drowning New Orleans--its people 
trapped on rooftops or sweltering in the Superdome--to focus 
our attention and rivet our efforts on getting FEMA as close to 
perfect as we can. We only need recall the needless deaths 
caused by the failure to adequately evacuate the poorest, most 
vulnerable residents and the ongoing challenges that remain 
trying to help a devastated region get back on its feet. The 
failed response to Hurricane Katrina shook the American 
people's confidence more broadly in our government, and that 
trust, I believe, will only be fully restored by the kind of 
steadily improving performance in FEMA that the IG report 
recognizes.
    To adequately understand where FEMA is today, I think we 
have to remember the state of FEMA when Hurricane Katrina made 
landfall in 2005. Following the Hurricane Katrina disaster, 
this Committee conducted an extensive investigation into what 
went wrong. The record is full of the documentation of what we 
felt went wrong, but suffice it to say here that the list of 
failures and inadequacies that our investigation uncovered in 
FEMA at that time was long and deeply troubling.
    That is why the Post-Katrina Emergency Management Reform 
Act, drawn up in this Committee following those hearings, aimed 
to create a new FEMA--a stronger, proactive disaster response 
agency that would be equipped to prepare for and, for the first 
time, respond to a catastrophe like Hurricane Katrina--in other 
words, to do both--or a terrorist attack even worse than 
September 11, 2001, which we must contemplate happening in the 
age in which we live.
    Knowing that the Post-Katrina Emergency Management Reform 
Act was only signed into law in October 2006, I am heartened to 
see that this IG report concludes there has been real progress 
across so many fronts in the past year and a half.
    I am also pleased by the way FEMA is working hard to 
implement these directives, as noted in the report, and if I 
may say so, I appreciate FEMA's new attitude, which under Chief 
Paulison is: If it is legal and it will help somebody, do it!
    One thing this report makes clear is that Congress must 
continue to invest in FEMA if the agency is to realize its full 
potential. FEMA received a much needed funding increase in the 
fiscal year 2008 appropriations bill that was an essential 
first step in the long process of building the new FEMA, but 
the actual dollars were only received by the agency a few 
months ago.
    An important point running through this DHS IG report is 
that additional substantial funding increases for FEMA are 
still necessary. That is very important to note. In almost 
every category reviewed--Planning, Coordination and Support, 
Interoperable Communications, Logistics, Evacuations, Housing, 
Disaster Workforce, Mission Assignments, and Acquisition 
Management--one of the reasons continually cited for lack of 
more substantial progress was a shortage of staff, a shortage 
of financial resources, or a shortage of both. So we are not 
going to have the first-rate, totally ready FEMA unless we 
invest in it.
    In many cases, the lack of adequate communications in the 
aftermath of Hurricane Katrina's landfall meant that first 
responders and other key officials lacked the situational 
awareness needed to respond effectively.
    Mississippi Governor Haley Barbour told the Committee, as 
my colleagues will remember, that the head of the National 
Guard of Mississippi might as well have been a ``Civil War 
general'' for the first 2 or 3 days because the only way he 
could find out what was going on was by actually ``sending 
somebody'' to find out and to report back to him.
    In the Post-Katrina Emergency Management Reform Act, 
Congress created the Office of Emergency Communications (OEC) 
to lead and coordinate interoperability efforts at the 
Department. The OEC, I am pleased to say, is up and running 
today but remains significantly understaffed, as this IG report 
points out. And I wanted to point that out myself because it 
remains such a priority for me, Senator Collins, and this whole 
Committee.
    Last year, in the second chapter of the 9/11 Commission 
legislation, Congress created a new grant program solely 
dedicated to improving interoperable communications. In the 
Post-Katrina Emergency Management Reform Act, we made FEMA 
responsible for implementing all of the homeland security 
grants, including almost $2 billion in Urban Area Security 
Initiative and State Homeland Security Grant funds, so that 
they can be more appropriately targeted to strengthen critical 
systems, including communications, needed to respond to all 
hazards.
    So, bottom line, this is an encouraging report, but we on 
this side of the table, along with you on that side of the 
table, are committed to continuing to improve FEMA, to be ready 
not just for the natural disasters that it has proven itself 
increasingly capable to deal with, but also for catastrophic 
events, such as Hurricane Katrina and, God forbid, a terrorist 
attack against the United States.
    I look forward to hearing our witnesses outline for us what 
has gone right and how we can improve on it and what has not 
gone right and how we can together fix it.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    We are approaching the third hurricane season since 
Hurricane Katrina and, later this year, the second anniversary 
of the Post-Katrina Emergency Management Reform Act that the 
Chairman and I, and Senator Coleman and others, worked so hard 
to enact. Today's hearing gives us an opportunity to evaluate 
how well FEMA has drawn on the lessons learned from Hurricane 
Katrina and acted on congressional mandates to prepare for a 
new catastrophe--a challenge that we know is inevitable, and 
yet hope will never come.
    As I reviewed the report of the DHS Inspector General, I 
read comments that mirrored my own observations. The IG found 
that FEMA has made progress in all of the areas reviewed, but 
that in some important ways, the progress has been limited or 
modest.
    I do not believe that we should underestimate just how 
difficult it is to completely revamp procedures, processes, and 
people while continuing to cope with many natural disasters. I 
know that FEMA has improved and is working hard on its 
deficiencies. Last year, I saw firsthand the agency's effective 
response to the devastating Patriots' Day storm in my State. I 
also observed a training exercise in Massachusetts and Rhode 
Island that was impressive in its coordination and scope. The 
regional approach that the Chairman and I advocated is clearly 
producing results.
    Nevertheless, the effective implementation of all of the 
comprehensive reforms is essential if FEMA is to learn the 
lessons of Hurricane Katrina and to prepare for even worse 
disasters, such as biological, chemical, or even nuclear 
attacks.
    Of the nine key areas of readiness reviewed by the IG, four 
showed only ``modest progress'' and one was judged to show 
``limited progress.''
    The weakest area concerned mission assignments--the system 
for issuing and coordinating task orders among Federal 
agencies. Our investigation of the Hurricane Katrina 
catastrophe identified fundamental flaws in the mission 
assignment process, particularly between FEMA and the Defense 
Department. These were a major roadblock to a quick and 
effective response, and I am concerned that we have not made as 
much progress in that key area.
    The IG report also notes that obstacles like staffing 
shortages, inadequate funding, lack of coordination, incomplete 
strategic plans, lack of accountability, and resistance to 
change from both internal and external stakeholders continued 
to be problems.
    There are some overarching issues as well. The IG observes 
that FEMA is working on plans for catastrophic preparedness and 
response on the Gulf Coast, in the New Madrid Fault seismic 
zone, and in major cities. But the IG adds that the plans are 
``very geocentric'' and that disaster officials regard them as 
not readily transferable. I want, however, to discuss this 
further with the IG since a regional approach focusing on the 
most likely scenario for that area strikes me as making good 
sense and it is consistent with the reform act.
    Moreover, the Department has devoted considerable resources 
to national planning. For example, FEMA and the Operations 
Directorate of the Department--in concert with other Federal 
departments and agencies--have been drafting strategic plans 
for each of the 15 national planning scenarios.
    Just a few months ago, FEMA issued its National Response 
Framework, which articulates the national doctrines, 
principles, and architecture for our Nation's preparedness for 
any emergency, whether manmade or natural. It is important to 
note, however, that plans are only as effective as the people 
implementing them and as the adequacy of resources backing 
them. And that is why the budget issues that the Chairman 
mentioned are still critical as is getting the right people 
into the right positions--something that I know that David 
Paulison has worked very hard to do. It is also precisely why 
FEMA's efforts to establish robust regional offices--as 
required by the reform act--is so vital.
    One of the changes that I think is making a real difference 
is having a Department of Defense coordinating official 
actually sitting in the regional FEMA offices. I have heard 
that has made a big difference and is improving coordination 
enormously. Since we came up with that proposal, I always like 
to highlight it as one of the successes.
    Chairman Lieberman. That is OK with me. [Laughter.]
    Senator Collins. The regional offices are also working much 
more closely than ever before with State and local emergency 
managers and with first responders on the entire preparedness 
cycle, including training, exercises, equipment, education, and 
homeland security grants, in addition to planning.
    The drive for a stronger and more effective FEMA also 
requires that we maintain the agency's location within the 
Department of Homeland Security, and I bring that issue up 
because we continue to hear some Members who pursue the idea of 
taking FEMA out of the Department of Homeland Security. That 
would require a huge duplication of effort. FEMA has made real 
progress, but as the GAO warned us last year, ``successful 
transformations of large organizations, even those faced with 
less strenuous reorganizations than DHS, can take from 5 to 7 
years to achieve.'' Another reorganization at this time would 
simply introduce distractions and disruptions that would 
undermine the progress that we are making without addressing 
any of the issues that have constrained that progress.
    I look forward to hearing from both of our distinguished 
witnesses today. We have worked very closely with them. We are 
eager to help you sustain FEMA's progress and catch up in areas 
where improvements have lagged. We want to fully realize the 
promise of the ``New FEMA'' envisioned in our 2006 reforms.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins, for that very 
thoughtful statement. It struck me as you were talking about 
the regional offices, what we know on the Committee, and the 
gentlemen at the table know, that there has been an enormous 
amount done in our government post-Hurricane Katrina and, of 
course, post-September 11, 2001, to be better prepared. Most of 
it is not seen--and, of course, in that sense not appreciated--
by the general public. The test, which we hope does not come, 
will come in a crisis, of course, in terms of how we prepare. 
But I think we feel on this Committee, in terms of what we have 
seen, that we have come a long way. Senator Collins talked 
about there being a representative of the Pentagon in each of 
the regional offices. That is critically important. We had 
testimony a while ago from the Northern Command about the 
extraordinary work that they are doing within that command 
focused on homeland protection responsibilities of the 
Department of Defense, now standing up over the next few years 
three units of almost 4,000 soldiers who are uniquely prepared 
to come in to help in catastrophic cases, including the worst 
nightmare cases of biological, chemical, nuclear, or 
radiological attacks.
    So it creates some satisfaction, and I want to express 
appreciation to both of you who are here and those who are not 
for what has happened, and though there is always a lot of 
controversy in this town, this would not have happened, we 
would not have made this progress without cooperation between 
the Executive Branch and those of us in Congress. So that is 
something to note with appreciation.
    On a point of personal privilege, I do want to note in the 
room, Wayne Sanford, who is the Deputy Director of the 
Connecticut Department of Emergency Management and Homeland 
Security. Chief Paulison, you will be happy to hear that he is 
in town for the Congressional Fire Services meetings this week, 
and he has with him a dozen University of New Haven fire 
sciences students. We have a great program up at the University 
of New Haven in fire science. Why don't you all stand up and 
just let us say hello to you. Thanks for your interest in 
public service.
    Thanks also to Senator Coleman and Senator Voinovich for 
being here. As you know, they bring not only their 
distinguished service as Members of the Senate, but past 
experience respectively as a mayor and a governor.
    General Skinner--I enjoy using that title--please go 
forward with your testimony.

  TESTIMONY OF HON. RICHARD L. SKINNER,\1\ INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Skinner. Thank you and good morning, Chairman 
Lieberman, Ranking Member Collins, and Members of the 
Committee. It is my pleasure to be here today, and I am 
particularly pleased to be able to testify side-by-side with 
Chief Paulison. Together, I am confident that we can paint a 
clearer picture of the challenges facing FEMA in the efforts 
underway to build a stronger, more robust organization capable 
of responding to a catastrophic disaster.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Skinner appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    Today, as you know, I published a report summarizing the 
results of a review my office just completed on the progress 
FEMA has made over the past 2-plus years to prepare itself 
better for the next catastrophic disaster. Today I would like 
to discuss the observations we made in that report. But first I 
would like to point out that our report is not a comprehensive 
assessment of all the initiatives that FEMA now has underway 
relating to catastrophic disaster preparedness; nor is it an 
in-depth, in-the-weeds analysis of FEMA's disaster preparedness 
activities; nor is it a scorecard of FEMA's catastrophic 
response capability. Rather, it is a snapshot or an overview of 
the progress FEMA has made in certain critical areas that, in 
our opinion, are essential to effective and efficient disaster 
preparedness.
    Also, our assessment was not intended to gauge FEMA's 
ability to respond to disasters or emergencies that are less 
than catastrophic in nature, such as the California wildfires 
or the Midwest floods which we are currently witnessing. FEMA 
has and continues to perform reasonably well responding to non-
catastrophic or traditional types of disasters. Instead, we 
focused on the progress FEMA has made to prepare for a 
catastrophic event such as Hurricane Katrina and its aftermath.
    The title of this hearing asks: Is FEMA better prepared for 
a catastrophe now than it was in 2005? And I believe the short 
answer to that question is yes. The work we have conducted 
shows that FEMA is making some progress in key preparedness 
areas and is in various stages of implementing the requirements 
of the Post-Katrina Emergency Management Reform Act. However, 
since much of the work has not been completed, one can only 
conclude that overall progress is somewhat limited.
    We identified nine key areas where progress needs to take 
place in order for FEMA to be better prepared for the next 
catastrophe. Overall, FEMA has made moderate progress in five 
of those areas, and those are: Overall planning, coordination 
and support, interoperable communications, logistics, and 
acquisition management. This means that FEMA has taken a number 
of actions to address problems, but much work remains before 
FEMA can say all of its problems in these areas have been 
resolved.
    It has made modest progress in three areas: Evacuations, 
housing, and disaster workforce. This means that FEMA 
identified many corrective actions that need to be taken and 
has taken some fundamental steps to address them, but few have 
been accomplished or fully implemented. And, finally, it made 
limited progress in one area: Mission assignments. This means 
that FEMA is aware of critical issues that need to be 
addressed, but few corrective actions have been taken or 
initiated.
    FEMA officials said that budget shortfalls, 
reorganizations, inadequate IT systems, and confusing or 
limited authorities have negatively impacted progress. We agree 
that these factors may have impeded FEMA progress, but we also 
believe FEMA needs to do a better job of documenting and 
communicating its overall strategy for improving its 
catastrophic disaster preparedness capabilities.
    Although FEMA may have developed some operating plans to 
address problems on a function-by-function or project-by-
project basis, it does not have a comprehensive, integrated 
operating plan or strategic plan with explicit goals and 
objectives and the strategies that it will use to achieve them 
or its catastrophic disaster preparedness program. This would 
include performance metrics with timelines to measure progress; 
a summary of the resources, systems, and processes that are 
critical to achieving the preparedness goals; external factors 
that could affect achievement of its goals, such as budget 
shortfalls; and a team dedicated to the achievement of the 
goals and objectives.
    FEMA is spending millions of dollars on new initiatives and 
enhancements in its disaster management systems. These 
initiatives are critical to enhancing its ability to better 
respond to disasters, but it is not apparent that they are well 
planned or integrated. It does not appear that FEMA's top 
management is effectively communicating its visions and plans 
for these initiatives to staff and other stakeholders or that 
there is assigned responsibility and accountability for each 
initiative. FEMA would benefit from better knowledge 
management; that is, greater sharing of information between and 
among its various stakeholders, both inside and outside the 
organization.
    Furthermore, as FEMA is planning to meet the demands of a 
successful all-hazards mission, its programs and approach to 
business are evolving. FEMA's 2009 budget request, for example, 
targets processes and technology initiatives that will advance 
the agency's preparedness capabilities. However, these types of 
initiatives could take years to accomplish. That is why it is 
important that FEMA develop a performance plan that will not 
only aid in setting a strategic direction, but it would also 
link resource needs to performance goals, ensure resource 
requirements target the highest priorities, and promote greater 
involvement of the emergency management community at all 
levels--Federal, State, and local. In doing so, FEMA would need 
to examine whether it will need additional funds and staff as 
well as additional statutory authorities.
    We are recommending that FEMA conduct a comprehensive needs 
analysis to determine where it is now and where it needs to be 
as an agency in terms of preparedness for a catastrophic 
disaster. This could serve as a baseline for the development of 
a comprehensive, integrated, strategic, and operational plan. 
Also, to help FEMA measure performance, we are recommending it 
develop or acquire the tools needed to track the progress of 
programs, initiatives, and enhancements, both planned and 
underway.
    Last, to further enhance accountability and transparency 
and to bolster the ability of key stakeholders to assist FEMA 
in achieving its mission, we are recommending that FEMA provide 
regular updates regarding progress on all major preparedness 
initiatives and projects.
    We recognize that FEMA sometimes views oversight as 
excessive and burdensome. Nevertheless, we believe FEMA's 
catastrophic disaster preparedness efforts will require special 
attention during the upcoming year as the Department prepares 
to transition to a new Administration. Regular reporting--and I 
am sure Congress will agree--can be an invaluable oversight 
tool for improving program management, enhancing 
accountability, ensuring transparency, and providing a basis 
for making informed policy decisions.
    In closing, I would like to say that FEMA is making a good-
faith effort to address the many challenges associated with the 
development and execution of initiatives to better prepare 
itself for the next Hurricane Katrina-like disaster. However, 
the ability of FEMA to sustain these efforts is fragile at this 
point in time because of the early stage they are in and the 
disruptions that may accompany the transition of a new 
Administration in less than a year. It is imperative that FEMA 
formulate a comprehensive performance plan with unambiguous 
milestones and metrics to gauge or measure performance and 
progress, ensure transparency and accountability, and help 
guide program execution.
    Mr. Chairman, this concludes my remarks. I will be happy to 
answer any questions that you or the Committee may have.
    Chairman Lieberman. Thank you very much. That gets us off 
to a good start.
    I want to put an exclamation point after the distinction 
you made and I tried to make in my opening statement, which is 
that this evaluation of FEMA is with regard to its ability to 
deal with a catastrophic incident. And although it seems that 
when you say something is a disaster, it is hard to distinguish 
between a disaster and a catastrophe, but there is a 
distinction. And maybe at some point in the questioning I will 
ask you about how you think they are doing in their ability to 
respond to disasters. But we are talking about the mega events, 
like Hurricane Katrina. Thanks very much.
    Chief Paulison, thanks for being here, and we look forward 
now to your response to the IG report.

TESTIMONY OF HON. R. DAVID PAULISON,\1\ ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Paulison. Thank you, Mr. Chairman, Ranking Member 
Collins, and Members of the Committee. I am really pleased to 
be here today to talk about some of the reforms past, present, 
and future that we are implementing at FEMA.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Paulison appears in the Appendix 
on page 60.
---------------------------------------------------------------------------
    I also want to start off by saying, since we have a lot of 
press here, that I am not leaving, despite what you have read 
in the papers. I think the Miami Herald did not understand when 
I was talking about how we are going to transition to the next 
Administration. But my intent is to stay here throughout the 
term of the Administration and to help whoever the new FEMA 
administrator is into this new system.
    Chairman Lieberman. I am glad I did not read the Miami 
Herald, but I am also encouraged that we will have you to kick 
around for a year more. [Laughter.]
    Mr. Paulison. My wife keeps saying, and you are thinking, 
``Why?''
    The FEMA of 2008 is not the FEMA of 2005. We have learned 
from the past and are dramatically improving our capabilities. 
The results were evidenced in our response to recent floods and 
tornadoes as well as our larger responses to last year's 
California wildfires, how we responded to Hurricane Dean and 
Tropical Storm Erin potentially making landfall in Texas, and 
the more than 400 disasters that we have responded to since 
Hurricane Katrina.
    I spoke just yesterday at the National Hurricane Conference 
on some of the reforms and improvements at FEMA. To start, we 
have placed additional resources and focus on planning and 
preparedness before a disaster strikes. FEMA has brought in 
operational planners, both at the national and the regional 
level. We are using a gap analysis tool in conjunction with the 
States to determine what Federal resources will most be needed 
to plan and where to meet those needs.
    FEMA has initiated a proactive, forward-leaning, 
geospecific catastrophic disaster planning initiative designed 
to ensure that FEMA and its partners plan and prepare for an 
appropriate, timely, and efficient response to a truly 
catastrophic disaster. As part of this initiative, we are 
partnering with the State of Florida to address a Category 5 
hurricane that could potentially place most of the Southern 
portion of the State in harm's way and impact as many as 7 
million people. And I want to personally thank Craig Fugate, 
the State emergency manager, and the governor for the work they 
have done on this catastrophic planning. But I do believe also 
that this catastrophic planning we are doing is transferable to 
other areas. In addition to the Florida project, there are 
planning projects for earthquakes along the New Madrid Seismic 
Zone and also earthquakes in California.
    All of this is in conjunction with our National Response 
Framework, which was issued earlier this year, as Senator 
Collins pointed out. This system is easier to use and easier to 
understand than it was in the past and will help our planning 
and our response efforts in the future.
    FEMA's operational capabilities have been greatly expanded. 
To coordinate with our Federal partners, we have 233 pre-
scripted mission assignments in place today, and that is up 
from 44 last year, with over 31 Federal agencies. We will have 
incident management assistance teams operational this year with 
the core professionals ready to deploy to a disaster site in 
hours to coordinate the Federal response. We have a new 
logistics system online that is better able to track and 
coordinate key materials as needed. In fact, FEMA's Logistics 
Management Directorate now has contracts and interagency 
agreements that will improve our capabilities in providing 
supplies and services, base camp support, evacuations, and 
transportation needs for our States.
    FEMA is better prepared to help communities get back on 
their feet once a disaster has struck. FEMA now has 60 mobile 
disaster recovery centers that can be deployed on-site in a 
disaster to help people get the support they need. FEMA 
continues to work with Federal, State, and voluntary partners 
to build robust systems for evacuations, shelter, and housing, 
including our collaboration with the American Red Cross to 
implement a national shelter system. We have established a 
national emergency family registry and locator system and a 
national emergency child locator center to help those displaced 
to find their loved ones--one of the major lessons learned in 
the aftermath of Hurricane Katrina. We also have a new policy 
to help those with pets. We are now focused on streamlining and 
improving the housing and individual assistance programs also.
    It is worth highlighting that since March 2003, FEMA has 
provided direct material and financial assistance to well over 
3.5 million individuals across this Nation. Today, we are 
continuing with these planned reforms, and I detail those in my 
written testimony. But I would like to take a moment to say 
that these changes and improvements would not have been 
possible without the hard work of the FEMA staff that has been 
supporting me. FEMA has made it a major priority to hire 
seasoned professionals, whether in the field of logistics, in 
IT, in acquisitions, as operational planners, or as experts 
able to deliver assistance to those in need. Our disaster 
assistance employees are now a cadre of experts ready to help 
in an emergency. The President and the Secretary have allowed 
me to select senior leaders with experience in the fields of 
emergency management and preparedness.
    All of these have essential roles to play. I hope that the 
Congress will help us by confirming my Acting Deputy 
Administrator Harvey Johnson, retired Vice Admiral from the 
U.S. Coast Guard. Admiral Johnson has been my right hand in 
making these changes and improvements. He is a man of integrity 
with more than 30 years of on-the-ground experience in 
emergency management. These people working for me who pour 
their hearts and souls into FEMA make it really what it is 
today and will make the agency that I have described in my 
vision.
    I am happy today to be joined by our Inspector General's 
office to discuss the recent findings. We do review this report 
as a validation of our efforts and as additional learning 
opportunities as we continue our progress. A copy of FEMA's 
response to the draft of the IG report is attached with my 
formal statement.
    FEMA appreciates the IG's assessment of improvements that 
have been made since 2005. We also understand, as he reported, 
that the IG had relatively little time to conduct its research 
and, as a result, we feel did not have the opportunity to 
conduct an in-depth assessment. With this in mind, we believe 
there are aspects that could have benefited from a more 
detailed examination. Let me highlight just two of those that 
are illustrative of how FEMA is not only using this report as 
an additional learning opportunity, but also an example of how 
FEMA in many ways is already ahead of the curve.
    The IG recommends we assess where we are and where we need 
to be in terms of preparedness for a catastrophic disaster, and 
we have been doing this since I joined FEMA more than 2 years 
ago. Last year, we asked independent experts to conduct 
assessments in 17 key areas and then use the results to develop 
our new strategic plan and our vision statement on 
preparedness.
    In addition, FEMA has been the subject of dozens of 
engagements, studies, and reports by outside entities, 
including the IG, the Government Accountability Office (GAO), 
and Congress. The Post-Katrina Emergency Management Reform Act 
specified more than 250 actions for FEMA. There are more than 
100 open recommendations from the GAO and more than 600 from 
the IG, and many of these, quite frankly, overlap. The sheer 
workload associated with responding to more than 700 
recommendations is really starting to impact our efforts to 
actually implement them. Instead, FEMA should be given the 
opportunity to implement our plans and continue to take action 
on the remaining Post-Katrina Emergency Management Reform Act 
requirements, as well as these GAO and IG recommendations.
    Another IG recommendation which has been previously 
addressed is that we provide regular updates regarding progress 
on all major preparedness initiatives and projects. FEMA is 
already actively providing these updates and is working on a 
comprehensive reporting effort that will be completed in April 
2008.
    While there are still many areas with a need for 
improvement, we have had our share of successes, and they are 
worth remembering as we demonstrate our improvements and how 
they are impacting our constituents today. In the past year 
alone, FEMA has responded to 63 major disasters and 13 
emergency presidential declarations and has also issued over 60 
Fire Management Assistance Grants. From Greensburg, Kansas, to 
the fires in California, to the current flooding along the 
Mississippi, we have seen improved and effective response from 
FEMA. I have visited these disaster scenes firsthand and seen 
the difference. As your own colleague, Senator Boxer, said 
after the California fires, ``The important difference between 
FEMA during Hurricane Katrina and now is that they have 
actually learned to bring people together as a team.'' And that 
is a key--teamwork.
    Our focus on engaged partnership, our stronger ties with 
our Federal partners; the tribal, State, and local governments; 
the private sector; and nonprofit community is building a 
stronger network and team that responds to disasters. From the 
relatively small to catastrophic, we are doing it, but we are 
doing it together. The National Response Framework strengthens 
this coordinated activity. Our reforms and resources are all 
aimed at getting the right tools to the right people at the 
right time.
    In this past year, FEMA has responded rapidly and 
effectively to the disasters we have encountered. We are more 
nimble and responsive than in the past. We will continue to 
move forward with many of the recommendations that come to us 
from all sources. We will never be perfect, but we can be the 
Nation's premium emergency management agency and preparedness 
group and a member of the team of which all Americans should 
and can be proud.
    I want to thank you and this Committee for your support and 
this opportunity. I want to thank the IG's office for their 
support. And like General Skinner said, I will be happy to 
answer questions also.
    Chairman Lieberman. Thanks very much, Chief. I appreciate 
your testimony and your work.
    Mr. Skinner, let me pick up on what I said after you spoke. 
I know it is not exactly what we asked you to focus on in this 
report, which is focused on catastrophic incidents. But since 
so many of these functions of FEMA would obviously also be in 
play in what we would term a disaster as opposed to a 
catastrophe, can we assume that the level of progress made 
would be higher if you were reaching that judgment? Or is the 
progress what it is and it would be true for a natural disaster 
like a tornado or a normal hurricane as opposed to the 
catastrophic hurricane that Hurricane Katrina was?
    Mr. Skinner. I think it is important to understand that 
FEMA was never, ever prepared to address a catastrophic 
disaster such as Hurricane Katrina.
    Chairman Lieberman. Yes. That is very important to say.
    Mr. Skinner. FEMA has, prior to Hurricane Katrina and 
subsequent to Hurricane Katrina, the ability to respond to and 
help citizens recover from--I hate to use the term ``garden 
variety disasters'' as that implies that people have not 
suffered as a result of the event--normal disasters such as 
these we are seeing in the Midwest floods. These are contained 
events. They are predictable. And FEMA has, I believe, the 
resources and the wherewithal to address those type of 
disasters. What we are addressing here is: Do we have the 
capability to deal with a ``catastrophic'' event?
    Chairman Lieberman. Right.
    Mr. Skinner. And therein lies the problem, I believe.
    Chairman Lieberman. All right. I hear you, because you are 
right. We asked you a comparative question, which is: Is the 
agency better prepared for a catastrophe today than it was in 
2005 when Hurricane Katrina struck? And that is why you are 
measuring progress here. And as I said at the beginning, though 
obviously we would like to see substantial progress in every 
category, nonetheless it has been a year and half, so we 
understand that it is difficult to turn these things around 
quickly. And, overall, we see progress. But I also hear you now 
saying that in your judgment the agency, FEMA, is prepared, in 
some sense always has been, but hopefully is even better 
prepared today as a result of post-Hurricane Katrina action, to 
respond to a natural disaster as opposed to a catastrophe.
    Mr. Skinner. That is correct.
    Chairman Lieberman. OK. I appreciate that.
    Chief Paulison, one of the areas here where you have given 
a higher mark, as it were, for moderate progress is logistics. 
The logistical failures in response to Hurricane Katrina were 
really some of the most infuriating and embarrassing, 
including, of course, the ice that found its way for some 
reason to Senator Collins' State as opposed to the Gulf Coast. 
Talk a little bit more about what you have done to avoid a 
waste and embarrassment such as the misdirected ice and 
everything else that happened around Hurricane Katrina.
    Mr. Paulison. It was, Senator, a combination of things that 
we had to do to fix what happened in Hurricane Katrina. And you 
are right, it was a major failure across the board. It was not 
just logistics pieces, although that was a big part of it also. 
Not having the ability to track supplies, not having the 
ability to get them to the right places, not having the ability 
to make sure that there was an end-to-end supply chain set-up 
from the time of ordering until the time of delivery, we've 
worked very hard to correct that. We brought in experts from 
UPS. We have a loaned executive from UPS working with us. We 
hired one of the top experts from the Defense Logistics Agency 
to revamp our system. Also, I took logistics out of operations 
and made a division which reports directly to me to give them 
more visibility and more strength and power to do the things it 
needed to do.
    But one of the more important issues that we had to fix was 
a lack of communication, the breakdown between the local and 
the State and then the State and the Federal Government, making 
sure that we all understood who was responsible for what and 
that supplies were there on time.
    And then the third piece of that was changing the culture 
of the organization. FEMA, based on the way the Stafford Act 
was written, was designed to be a reactive organization. We saw 
in Hurricane Katrina that does not work. FEMA has to be a 
proactive organization. And I want to use an example because I 
do disagree with the IG--and we disagree professionally--on our 
ability to respond to a catastrophic event.
    What happened in Hurricane Katrina was FEMA waited until 
the storm hit before it decided to start moving buses and 
looking for transportation.
    Chairman Lieberman. In some cases, even to acquire what was 
necessary.
    Mr. Paulison. That is correct. The other issue was 
contracting. I will not even get into that. I am trying to keep 
my answers as short as I can.
    Chairman Lieberman. Sure.
    Mr. Paulison. What we did in Hurricane Dean, which was a 
Category 5 moving into the Brownsville, Texas, area, with an 
extremely vulnerable population of people who live in really 
substandard housing, some 400,000 along that Texas coast----
    Chairman Lieberman. What was the date of that, just for the 
record?
    Mr. Paulison. Just last year. I don't remember the exact 
date of Hurricane Dean. We worked with the State of Texas prior 
to the storm landing, we amassed hundreds of buses with 
drivers, hundreds of ambulances with drivers. We had the 
Department of Defense set up to do air transportation of the 
most vulnerable population that cannot take care of themselves, 
those in nursing homes, those who were invalid, to transfer 
those people to safe harbor. I put six Urban Search and Rescue 
Teams on the ground, we put communications equipment on the 
ground--all prior to the storm making landfall.
    Had that happened in Hurricane Katrina, we would not have 
had the fatalities that we had. We would have had a better 
evacuation plan in place. People would have been bused out of 
the areas instead of being stuck where they were. So we have 
learned a lot of lessons from Hurricane Katrina.
    Chairman Lieberman. Well, that is great. I take it by the 
reference to UPS--I am not here to do an advertisement for UPS, 
but I can tell you that my wife and I just happened to buy 
something here that we wanted to ship up to our home in 
Connecticut, and she got so many notices from UPS as to where 
the shipment was at that moment that she began to complain to 
me. So it is easy to do, and I take it, therefore, that you now 
have a system that will tell you when you are moving materials 
to a disaster or a catastrophe area exactly where they are and 
how soon they are going to reach the destination.
    Mr. Paulison. We do that, and it is available across the 
country, and we can tell a governor very clearly where those 
trucks are. My goal really is to move that equipment into the 
State even before they have to ask for it, like we did with the 
snowstorms in Oklahoma. We moved generators and equipment into 
the State before they got a declaration. And so when the 
governor asked for the generators, they were already there.
    Chairman Lieberman. Thanks very much. Senator Collins.
    Senator Collins. Thank you.
    Chief Paulison, as part of the FEMA Reform Act, we also 
directed FEMA to enter into pre-disaster contracts as much as 
possible so that we did not see once again the problems in the 
wake of Hurricane Katrina where these enormous sole-source 
contracts were awarded and far more money was spent than if the 
contracts had been negotiated in advance and then could just be 
pulled off the shelf when disaster struck.
    I am also pleased to see that with the additional funding 
that we have provided, FEMA has increased its contracting 
staff. As I recall, there were only 35 during Hurricane 
Katrina, and today you have 162 contracting positions. So that 
allows you to do far better planning and avoid an excessive or 
unnecessary reliance on non-competitive contracts.
    However, the IG's report still expresses a concern about 
FEMA's ability to monitor a contract after it has been awarded, 
and the GAO last November also was critical about FEMA's 
management of a contract for managing and maintaining group 
manufactured housing sites in Mississippi and reported more 
than $30 million in questionable payments. These payments 
occurred, according to GAO, for the period between June 2006 
and February of last year, so it is not in the immediate 
aftermath of Hurricane Katrina.
    What is FEMA doing going forward to ensure better contract 
management after the award of the contract? It seems to me you 
have made a lot of progress on the front end, but there are 
still problems on the back end.
    Mr. Paulison. One of the big issues is having enough people 
to do that, and with the number of positions that this Congress 
has given us, we are in the process of hiring people to do 
that. Like you say, we have over 100 contract people now, but 
that also includes our contract specialists who monitor those 
contracts. We are putting more and more of those people on the 
ground. We do not have enough yet, but with the 2009 budget, if 
the 2009 budget is approved as submitted, FEMA would have gone 
from 2,100 full-time employees to 4,300 in just 2 years. So we 
would have almost doubled the size of this organization. That 
gives us the resources that you are talking about that we need 
to fulfill those. The IG and the GAO both reported to us that 
we need to do a better job of monitoring the contracts.
    Senator Collins. Well, just this week a general complained 
to me that all of the good DOD contract officials are now going 
to FEMA, so apparently you are making some progress. That 
actually is a serious problem throughout the Federal 
Government. The procurement workforce is very strained. Many of 
them are eligible for retirement, and as part of the 
contracting reform bill that this Committee has reported and 
the Senate has passed, we take direct aim at bolstering the 
contracting workforce, which I know is a problem throughout the 
Federal Government.
    Mr. Skinner, shortly after Hurricane Katrina, you testified 
to this Committee or before this Committee about the work of 
the Hurricane Katrina Fraud Task Force because, unfortunately, 
at that time FEMA did not have the common-sense safeguards in 
place to prevent fraud in the individual assistance program, 
and we held hearings which revealed widespread fraud in that 
program, truly outrageous examples of prisoners, for example, 
receiving housing assistance.
    What is the status of the work of that task force?
    Mr. Skinner. It is still working. It is going very strong. 
We are located now in Baton Rouge. We are working collectively 
with over a dozen IGs and other law enforcement agencies--the 
FBI, Secret Service, and Postal Inspectors. We are continuing 
to receive allegations. Approximately, I believe, we are 
getting right now in Louisiana alone about 100 allegations a 
week. In Mississippi, where there are less, we are receiving 
approximately 30 to 40 allegations a month on various 
corruption schemes. Just in the past quarter, we have had over 
30 arrests and 20-some indictments. We have approximately 200 
to 300 open cases in Louisiana alone. We are working about 50 
cases with other IGs.
    We have committed to that task force, and we intend to stay 
there for the long haul, not only in Baton Rouge to cover the 
Louisiana storms, but also in Texas for Hurricane Rita, as well 
as offices that we have set up in Biloxi and Vicksburg, 
Mississippi.
    So it is going strong, and we have invested the resources 
there, and we intend to keep them there as long as they are 
needed.
    Senator Collins. Do you think that FEMA has implemented 
sufficient safeguards in its process for awarding individual 
assistance to prevent the kind of fraud that you found through 
your investigations? For example, I remember that one of the 
deficiencies was that if you applied online, there were certain 
checks that were done to ensure the identity and location of 
the individual, but that if you called, you were able to get 
assistance without those kinds of checks, or maybe it was the 
other way around. But do you believe FEMA has put in place the 
kinds of safeguards to prevent that kind of blatant fraud?
    Mr. Skinner. I believe FEMA always had those safeguards. 
After Hurricane Katrina, they were waived, and that opened a 
window of opportunity for those that wanted to take advantage 
of the system, and that is what they did.
    I think FEMA needs to invest in its systems. I think they 
are archaic. I think they can improve in their abilities to 
process applications so they do not have to waive requirements 
in a catastrophic environment. That is something that FEMA is 
looking at, and I understand that, in their 2009 budget, it is 
something that they want to begin to invest heavily in, that 
is, the enhancement of their IT systems.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks very much, Senator Collins. We 
will go to Senator Coleman next.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Mr. Chairman.
    Mr. Chairman, I do want to start first by thanking you and 
the Ranking Member for your continued leadership in this area, 
both right after Hurricane Katrina and the incredibly extensive 
hearings and review that we did, and then following up right 
now. I do not think there is any question that this is a 
different FEMA than what we all saw and experienced in 2005. On 
the non-catastrophic level, the disaster level--and I have to 
presume from many of my colleagues who have had the same 
experience, we have seen FEMA in operation in southeastern 
Minnesota. We had a series of very devastating floods, and 
Director Paulison was there on the ground. And even long after 
he left, I had a chance to interact on many occasions with FEMA 
personnel, and there is a more positive spirit, a greater sense 
of pride in working in an organization. And I think that is 
critical. Leadership makes a difference, and we see that. 
Nevertheless, this is a race without a finish line, and we need 
to continue to improve on a constant basis.
    During the oversight hearing, in fact, the Inspector 
General had made the comment that we had food and everything 
was in the pipeline, but we could not track it. And the 
Chairman has raised the question about logistics using 
technology. In fact, my comment was, ``Why didn't you call 
FedEx or UPS? They have systems.''
    General Skinner's report does, on logistics, indicate that 
there is an improved Total Asset Visibility (TAV) system, but 
then the report does indicate that FEMA personnel said there 
are many gaps in the system. And so I would just like to 
explore that a little more fully.
    Director Paulison, you indicated your confidence that we 
contract things, but the report talks about gaps, talks about 
in particular overcoming TAV user resistance from the field. I 
want to get a little better understanding. Are the gaps we talk 
about here gaps in the ability to track the logistics? And if 
so, what are we doing to overcome them?
    Mr. Skinner. What we were referring to is that FEMA now has 
the capability to track commodities which are in its 
possession. What it is not capable of doing is tracking 
commodities that are ordered at the local level or at the 
regional level in response to a disaster, or track those 
commodities that are provided by other Federal agencies or by 
the private sector. And therein lies one of the issues, I think 
FEMA still needs to continue to study and to work on this 
issue.
    Senator Coleman. And certainly in a world in which on the 
private side, wherever we get something, people simply expect 
that we have the technological capability, no matter who 
provides it, to track it. Director Paulison, tell me what we 
are doing to fix that gap.
    Mr. Paulison. What we want FEMA logistically to be is more 
in control of logistics than just those of FEMA, and that is 
what the IG was talking about. We want to be able to track all 
of the Federal assets, regardless of where they come from, 
including the local governments. One of the examples that I 
will use is just recently we had floods--I think it was in 
Nevada--and we had tons of water in Moffett Field in 
California. Instead of shipping it from Moffett Field, we just 
went to the local Wal-Mart, talked to them; they took care of 
the process. They used their drivers, their trucks, their 
water, and delivered it for us. So we are looking more at using 
the third-party logistics, using more of the private sector, 
getting them involved with us. There is no reason for us to 
reinvent the wheel. But what we are trying to do--and we are 
not quite there yet--is to have a total visibility of all the 
assets across this country, whether it is with the Red Cross, 
whether it is with another Federal agency, or whether it is 
with the private sector. And that is where we are heading with 
this, and we do have money in the 2009 budget to help us with 
that process that General Skinner talked about.
    Senator Coleman. Can you also talk a little bit about 
openness to technology? Again, that was my concern post-
Hurricane Katrina that there was tracking technology and we 
were not going to use it. I was looking at something the other 
day, a device to create water out of air, an Israeli process. 
Folks said that, yes, we have talked to FEMA. I often get--and, 
again, there are a million great ideas out there, but there is 
always this question about whether the bureaucracy in the 
system is open to things that come from outside the system.
    Talk to me a little bit about working with the new 
technology, innovation, and how ready the agency is to kind of 
adapt tech into that. I do not know, Inspector General Skinner, 
whether you looked at that, but I am interested in how do we 
make sure that we are tapping into the 21st Century technology 
that is available.
    Mr. Paulison. I agree, we do not want to reinvent the wheel 
if it is already out there. We have a couple of those units 
that we purchased in the aftermath of Hurricane Wilma. But the 
bottled water still serves us the best right now. We do have 
those units and supply it if we brought them up. But they 
cannot produce water as fast as we can take a tractor-load of 
bottled water and deliver it to somebody. And it just produces 
the water. We still have to bottle it and package it somehow, 
and it is just not quite where we want to be. And even the 
units we have purchased, there are others out there from other 
companies that, quite frankly, will do a better job than what 
we have.
    But right now, the bottled water works well for us. It is 
easy to move. It is readily accessible anywhere around the 
country. And like I said, we can go to a Wal-Mart, K-Mart, or 
any other place and get it if we do not even have it in our own 
stocks somewhere close. That is really what is serving us best 
right now.
    Senator Coleman. Mr. Chairman, are we going to have another 
round?
    Chairman Lieberman. We will.
    Senator Coleman. Good. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Coleman. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman.
    First of all, I would like to say that my experience with 
your agency has been terrific. We had floods in Hancock County 
and Huron County in Ohio. I had a roundtable there, and the 
reaction from the community in terms of cooperation and 
coordination between the Federal and State Government was 
great. So you should feel real good about that.
    Second, I want to thank you for sticking around. I am 
concerned that people in responsible positions like yours are 
leaving the Administration. One of the things that I am 
concerned about is that Inspector General Skinner said in his 
report that FEMA has yet to complete many of the workforce-
related actions required by the Post-Katrina Emergency 
Management Reform Act. I have several questions:
    Why the delay?
    What percentage of FEMA's Senior Executive Service is 
eligible to retire?
    Do you have the authorities you need to recruit, retain, 
and reward folks, which are extremely important?
    Mr. Paulison. That is a handful. Let me talk about the 
transition to the new Administration first because that is an 
important issue for us.
    All of our career senior positions are filled, so when the 
politicals leave, there are people there who will transition to 
the next group. I have asked Nancy Ward, our career Region IX 
administrator, to be that transition lead. If, come January 20, 
the new Administration has not appointed a FEMA administrator 
or FEMA team, she will be there to carry on across into the 
next Administration to make sure that is in place.
    The political appointees will leave. I mean, they are going 
to leave between now and January 20. Hopefully they will not 
leave until then. But I have been given the authority to fill 
those slots. In one example, our Region VIII director out of 
Denver left and took a job at a State, and we have already 
filled that slot--well, not quite filled yet, but we picked a 
person to do that, and he is in the process and should be 
coming aboard within a few weeks. And that is a political 
position. We were still able to go out and recruit a person 
with 30 years of experience in emergency management to come, 
and even though there is only 9 months left, or 8 months now, 
to come in and do that. So I am comfortable that we are able to 
track good people. I have worked very hard to put this 
organization on track, and I do not want to lose it because we 
are changing the Administration. So I am working very hard to 
make sure that does not happen.
    There are a lot of pieces of the Post-Katrina Emergency 
Management Reform Act that we have not quite done yet, and we 
are working hard to make those happen. There are a lot of them. 
There are too many to get done and still manage the 
organization. We have been able to hire a lot of people, and 
that is really going to help us to do more of that.
    One of the issues is the Housing Plan. We have been working 
with Senator Landrieu, and my deputy promised we would have 
that done by April 1. We have the draft done, and I believe you 
are going to be briefed on it here shortly, in the next couple 
days. But that has to be circulated among our stakeholders, and 
I want to do that so that they have a piece of that. And also, 
according to the Post-Katrina Emergency Management Reform Act, 
we have to make sure that the National Advisory Council that 
was created reviews that and has input into that also.
    Senator Voinovich. Will your Human Capital Plan be 
completed before you leave?
    Mr. Paulison. Yes, sir. The Human Capital Plan should be 
done. We are working on it very hard. A lot of this stuff is in 
progress. It is just not quite done yet. My most important 
thing was rebuilding the organization; that we have done. The 
National Response Framework had to come first before the 
Housing Plan fell in place. So there are several things that 
are falling in place, and I am going to make sure that we get 
as many of them done as we can before we transition. And there 
will be a plan in place for the next group.
    Senator Voinovich. Mr. Skinner, how do you feel about what 
Chief Paulison has just talked about, the transition and 
succession planning?
    Mr. Skinner. First, I must say that the Secretary as well 
as FEMA and other components within the Department have given a 
lot of attention to transition planning, recognizing that the 
Department of Homeland Security's mission is much too important 
just to be put on hold for----
    Senator Voinovich. I want to say this publicly, that I am 
very impressed with the plan that they are putting together.
    Mr. Skinner. Yes.
    Senator Voinovich. My concern is that the plan that they 
put together is implemented. [Laughter.]
    Senator Voinovich. But it is good to have a plan.
    Mr. Skinner. Yes. Planning is everything. Plans are 
meaningless if they are not implemented.
    The concerns that we would have here--and I am focusing on 
FEMA right now--is that they are putting people in place, they 
are filling critical positions, but the people that they are 
putting in, although they are experienced, they are not 
experienced in doing business with FEMA. They do not understand 
the culture of FEMA. They have to learn how the Stafford Act 
works. They have to learn how Title 44 of the Code of Federal 
Regulations (CFR), the regulations that implement their 
programs, work. You do not do that overnight. FEMA's programs 
are complex, and it takes time to learn those programs. And 
that is our major concern right now.
    They have a lot of turnover at the very highest levels 
within FEMA, over the last 6 months. Yes, they are bringing 
people in, but warm bodies in itself is not always the answer. 
They need to be trained. They need to acclimate themselves to 
the culture and have a complete and thorough understanding on 
how those programs are supposed to work. And those are the 
issues that we have to deal with over the next 9 months.
    Senator Voinovich. If you could provide me with your 
estimate of the turnover of your Senior Executive Service, I 
would appreciate it.\1\
---------------------------------------------------------------------------
    \1\ The response to Senator Voinovich's request from Mr. Paulison 
appears in the Appendix on page 100.
---------------------------------------------------------------------------
    Mr. Paulison. Yes, sir, we can do that.
    Senator Voinovich. And you might even point out why you 
think some of them are deciding to leave.
    Mr. Paulison. Well, all of our senior positions are filled. 
And we have had some people retire. They have 30 years of 
service in the Federal Government and made decisions to move. A 
lot of the people that are brought back in were former FEMA 
employees. Like when Deidre Lee left, I brought Al Sligh back 
in to fill that slot. So we are filling them.
    Mr. Skinner and I have a little bit of a disagreement. I do 
not necessarily want people to come in that understand the 
culture of FEMA. We are trying to develop a new culture, and 
this turnover that we had and bringing new people in has 
allowed me to get much further along than we would have if that 
had not happened.
    So it is a good thing and a bad thing. It is a bad thing 
because we have a lot of hiring to do, but the good thing is we 
have a lot of new people on board who are really on board with 
this new FEMA philosophy of leaning further forward.
    Senator Voinovich. Thank you.
    Chairman Lieberman. Thanks, Senator Voinovich.
    I know everyone in this room knows, but one of the problems 
we have found with FEMA in response to Hurricane Katrina was 
that it was way down in terms of positions being filled. I have 
forgotten the number. Do you remember? Was it 80 percent?
    Mr. Paulison. It was lower than that when I took over. I 
think we were around 70 percent of authorized strength.
    Chairman Lieberman. Yes, and now you have essentially 
filled all the positions.
    Mr. Paulison. We were at 97 percent until you gave us new 
funding for new positions, and now we are down probably around 
75 percent. But we have proven----
    Chairman Lieberman. But you are in the process of filling 
those.
    Mr. Paulison [continuing]. That we can hire, and we are 
going to continue to do that.
    Chairman Lieberman. Excellent. Senator Landrieu, and then 
Senator McCaskill.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, and to the 
Ranking Member as well, for your continued focus on an area 
that still needs a great deal of focus and support.
    As my colleagues know, I am normally a person that sees a 
glass half-full as opposed to half-empty. But I have to say 
today that I still remain concerned, Chief Paulison, about the 
lack of progress in substantial areas. I recognize that we have 
made moderate progress, but I still continue to be frustrated 
by the lack of apparent urgency on the part of several 
officials--not necessarily you, Chief, but others--that do not 
quite seem to understand how important it is to get those 
Stafford Act changes in place before another catastrophic 
disaster hits.
    Even Secretary Chertoff, who has been, in my view, not very 
forthcoming about the need to approach these things 
differently, in his Valentine's Day testimony before this 
Committee, said, ``Senator, I will tell you what, I think 
that--and I have said this publicly before--the dimension of 
the challenge and what is being requested in connection with 
the Gulf Coast is an order of magnitude that is vastly 
different from the normal disaster mechanisms for which the 
Stafford Act applies. I think,'' he says, ``we should take a 
more general look at whether the way we approach reconstruction 
efforts of this magnitude that you are talking about should be 
taken out of the normal model rather than making the normal 
model fit into it.''
    What are the five changes that you are recommending to the 
Stafford Act that need to be done in order to deal with a 
catastrophic disaster? And I would like to ask the IG the same 
question.
    Mr. Paulison. I do not know if I can rattle off five. I can 
tell you that my plans are--before I leave--to make sure that 
we provide this Committee with what I feel are detailed 
changes, but let me give you some right now.
    One, you need to give the FEMA director more flexibility to 
respond to disasters like you are talking about.
    Two, I agree with the Secretary that maybe we want to look 
at a different model for those truly catastrophic events--and I 
do not know what the answer is, but I think we do need to put a 
group together to decide what that is--and maybe there is 
something else we need to do when these things are truly 
catastrophic.
    Three, there needs to be more latitude for the FEMA 
Administrator to put things in place prior to a disaster 
declaration so we can move things and be able to spend money 
out of the disaster relief fund even if there is not a 
declaration.
    So those are three that I can give you off the top of my 
head. There are others that you and I can talk about, or if you 
want to put a group together with this Committee, I would be 
glad to do that, to sit down and brainstorm.
    The Stafford Act was a great document when it was put 
together, but it does not work, as you clearly know, in an 
event like Hurricane Katrina. It is too restrictive, and you 
cannot do some of the innovative things you really want to do 
to do that.
    Senator Landrieu. And would the IG answer, please?
    Mr. Skinner. That is a very tough question, and it is 
something that I think requires a lot of thought.
    When we talk about the Stafford Act, I think we have to 
look beyond just FEMA. I think what we have to do, when we 
start talking about catastrophic type events, is look at what 
the Federal Government's overall responsibilities are for 
rebuilding a community. I think you have to start looking at 
economic development, long-term housing, things of that nature, 
things for which, I think, FEMA historically does not have 
responsibility and I do not want to suggest that they should 
have responsibility. But I think the Stafford Act needs to be 
amended to be able to address those type of issues.
    Senator Landrieu. Well, I thank you for that testimony, but 
I would remind the Committee of the urgency that there is 
another hurricane season that starts June 1, and none of this 
has been, to my knowledge, put in place yet. And if we are hit 
by another catastrophic hurricane that causes similar flooding 
or displacement of a million people, Mr. Chairman, I am not 
sure we are actually any better off today than we were 2\1/2\ 
years ago when Hurricanes Katrina and Rita struck.
    Let me raise one other issue. My Subcommittee on Disaster 
Recovery has held eight hearings. We have identified many 
problems. One of them is the tangled public assistance program. 
I have specifically said that I will continue the hold on the 
nomination of your Deputy Administrator until a third party is 
set up to arbitrate the ongoing, never-ending battles between 
local governments and the Federal Government about what is owed 
to each to build a school, a post office, etc. So if that is 
done, I will release my hold. If it is not, it will not get 
released.
    But on the subject of trailers, just yesterday we were 
contacted, Mr. Chairman, by Jennifer Donaldsonville from Pass 
Christian, Mississippi. It is a very tragic report. She had 
been housed in a trailer during her first trimester of her 
pregnancy. She moved out of the trailer because the fumes were 
bothering her. Just yesterday, we got a call from her and her 
doctor, toxicologist Jack Thrasher. The baby had stopped 
breathing at 6 months old. The baby was brain dead for 20 
minutes. The baby was revived but now has brain damage. There 
is no conclusive evidence yet that it was related to the fact 
that she lived in a trailer, but that is going on right now.
    As to the thousands of people that are still living in 
trailers laced with formaldehyde, the report that was due in 
July 2007 was extended to April 2008. It is still not in; April 
1 was a few days ago. When are we going to get something from 
this Administration on what we are going to do with people to 
house them in something other than trailers laced with 
formaldehyde?
    Mr. Paulison. Well, first of all, in my tenure, we are 
never going to use travel trailers again, regardless of the 
formaldehyde.
    Senator Landrieu. Thank you.
    Mr. Paulison. Second, the Housing Plan that you have asked 
for was given to me April 1. It is a draft. We are going to 
brief you on it. I think it is either tomorrow or next week, 
whatever your schedule is, to show you what we have. We are 
going to give it to our National Advisory Council as required 
to be law and get input from our stakeholders. It will be in 
place before June 1. I know we did not meet the April deadline, 
but it will be a good policy. There is a planning aspect to it. 
There is a realignment. We have to look at the realignment of 
who is responsible for what. That got mixed up after Hurricane 
Katrina.
    Senator Landrieu. And I agree that it is not FEMA's 
complete responsibility to prevent, respond, recover, and 
rebuild. And somebody in this government has to realize that 
the Department of Housing and Urban Development (HUD) has to 
step up. The Department of Commerce has to step up. The U.S. 
Fish and Wildlife has to step up. And we have to get that 
organized pretty quickly. If another Category 5 hurricane slams 
into Galveston, God help the people of Galveston.
    But one more thing--and then I am going to let you go--
aside from housing. The question of the staffing is very 
important. You are testifying that you are fully staffed, but 
the question is: Have you asked for more funding from the 
Administration? Not from Congress. I think this Committee has 
been quite generous and so have your appropriators. But what 
have you asked of your Administration, either verbally or in 
writing? And say what they have given you or what you are 
disappointed they have not approved in your budget request. 
Could you be specific? And that will be my last question.
    Mr. Paulison. Yes, we have asked for more people and 
funding for that, and we have been given that. FEMA has the 
largest budget that it has ever received in its history in the 
2008 budget. We have asked for more people in 2009 and the----
    Senator Landrieu. Was there anything you asked for that the 
Administration denied you?
    Mr. Paulison. No, they did not. Everything we have asked 
for we have received.
    Senator Landrieu. OK.
    Mr. Paulison. And that is a significant issue considering 
the budget constraints that we are having. I asked for more 
people in 2009. The President is recommending those to 
Congress. And I appreciate the support from the Secretary and 
the President because they recognize we have to have more 
people if we are going to do the things you are asking us to 
do.
    Senator Landrieu. Thank you.
    Mr. Paulison. Thank you.
    Chairman Lieberman. Thanks, Senator Landrieu. Senator 
McCaskill.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. Thank you, Mr. Chairman.
    Let me start with all the sweetness and sugar. I know you 
are on the ground in Missouri subsequent to the flooding. 
Unfortunately, we have precipitation reports that are not good. 
We have incredibly saturated ground. We have, as you know, 
reservoirs that are filled to the brink at the current time. 
But I must compliment you and FEMA for the quick response and 
for the help that is on the ground. There have been several 
heart-warming stories of people who were at wits' end and 
walked in and got answers, got them quickly, and are getting 
help.
    So before I begin any of the critical stuff, let me tell 
you that I think you have done a very good job in terms of 
Missouri. I know you are still on the ground, and I think you 
are going to be there for a while because I have a bad feeling 
about rain through the weekend and what it might mean, 
particularly for the Meramec and some of the reservoirs down 
south.
    Let me first ask about the flood mapping. Senator Pryor and 
I sent a letter about Zone X warnings on flood maps to which we 
have not gotten a response. Usually I am all about GAO and the 
reports, and they are anxious for you to expand the base and 
get more money into the program. But, frankly, that is 
unrealistic that we can expand the base to absorb the 
incredible rock that the snake swallowed related to Hurricanes 
Rita and Katrina.
    I was up on a bluff in southeast Missouri and with levees 
that have never been a problem in the area, and the guys on 
this bluff tell me that they are going to get mapped in. And, 
of course, there are consequences when they get mapped in 
because that means no bank is going to loan money without flood 
insurance. This is an expensive proposition for people who have 
no risk.
    Now, I understand that FEMA says, well, you can 
individually appeal. But telling an individual they can appeal 
to the Federal Government is worse than saying you are going to 
have a bad day. That is a formidable task to tell an individual 
you just need to tackle that Federal Government.
    What can you tell me about this mapping and the fact that 
Senator Pryor and I have not received an answer to our letter 
concerning this issue?
    Mr. Paulison. Well, first of all, I will find out about the 
letter. We try to respond to those very quickly, particularly 
with the flood issues, because those are important issues for 
all of us.
    Two, we are not expanding the base to collect more money. 
What is happening across the country as we are doing--we are 
remapping the entire country, and we are going to have almost 
all of it completed here just in a couple years. And part of 
the issue also is the certification of levees. If the Army 
Corps of Engineers cannot tell us that a levee is certified, 
then we have to take away that protection of that levee. We 
have to act as if it is not there. And it is not the individual 
that has to appeal. The State or the community can appeal. I 
have dealt with several just recently and have made some 
changes in some of the flood maps because they brought us new 
information.
    I will be happy--and not only happy, thrilled--to sit down 
with anyone you want us to, to go over if we have made a 
mistake with the flooding mapping or if they feel like we are 
in error. And we are doing that across the country.
    Senator McCaskill. OK, good.
    Mr. Paulison. We are giving our best based on what we see 
are the potential hazards--we are just trying to protect 
people.
    Senator McCaskill. I get that.
    Mr. Paulison. Really, we are. But we do not want to make a 
mistake and cause somebody to--I mean, if I lived on a bluff, I 
would have flood insurance anyway. What we just saw in your 
State and what we just say in our----
    Senator McCaskill. I do not think if you lived on this 
bluff you would.
    Mr. Paulison. Well, maybe not.
    Senator McCaskill. Trust me. I mean, we have got some 
serious common sense in Missouri----
    Mr. Paulison. But in Arkansas----
    Senator McCaskill [continuing]. And I have a feeling your 
common sense would prevail and say, no, there is not going to 
be a flood here.
    Mr. Paulison. But we saw thousands and thousands of people 
in Arkansas and Missouri who got flooded who did not have flood 
insurance. Now, they are going to get up to $28,000 from FEMA, 
but that is not near enough to repair their homes. So that is 
why we are pushing people to get flood insurance.
    Senator McCaskill. And there is a balancing test, and I 
know that, and I appreciate that.
    Mr. Inspector General, as you may or may not know, I am 
trying to be the best friend of the IGs, if I possibly can, in 
Congress, and there are others here that have done a lot of 
work. The Ranking Member and the Chairman have done an awful 
lot of work with IGs, and obviously Senator Grassley and many 
others who have come before me, and I stand on their shoulders. 
But when I read in a report that you had difficulty getting 
access to something, all my bells and whistles and sirens go 
off.
    Would you please tell me what the problem was, and 
particularly what you had trouble getting here--which was pre-
disaster contracts. Well, obviously the contracts that are in 
place that have been entered into are very important in terms 
of the accountability measures that are in those. Tell me what 
happened with your inability--while Mr. Paulison is here, tell 
me why--what you could not get, and then I can make him tell me 
why you could not get it. [Laughter.]
    Mr. Skinner. Well, first of all, Senator, I am well aware 
of the support you have given the IG community, and I and the 
IG community, in fact, are very appreciative of your support.
    The issues that we are dealing with here with the 
contracts--and these are issues that go back almost 12 months, 
and as a result of allegations that we had received with 
regards to some improprieties, with regards to certain 
contracts, we asked for those contracts and related files. We 
did not receive those.
    I cannot give you an explanation of why we did not receive 
those files, but we waited and we waited and we waited, until 
eventually the U.S. Attorney or the Assistant U.S. Attorney 
opted to subpoena FEMA for those files.
    I have since met with Chief Paulison, Deputy Administrator 
Harvey Johnson, and others in FEMA to discuss our concerns 
about getting access to files, getting access to people, and to 
facilitate better and increased cooperation.
    Since then, we have seen improved cooperation with FEMA. 
FEMA's staff both at headquarters and in the field have been 
more responsive to our requests for documentation of----
    Senator McCaskill. Have you seen the documents yet?
    Mr. Skinner. Yes, we have.
    Senator McCaskill. You have seen them now.
    Mr. Skinner. Yes. We now have all those documents.
    Senator McCaskill. OK. And, Secretary Paulison, why did 
they have to resort to a subpoena to get documents that common 
sense would tell you they should have access to and it should 
happen immediately without having to resort to a subpoena?
    Mr. Paulison. They did not have to. If they had come to me, 
I would have made sure they got them. We had people who for 
some reason or another were not giving the documents they were 
asked to give. We met with General Skinner and Matt Jadacki. 
They explained they were having difficulties. I made it 
extremely, extremely clear to my staff that any documents they 
are asked for by the IG's office or by the GAO, they are to 
give them. And since then, that has happened.
    Senator McCaskill. Have you identified who it was that had 
a bad attitude?
    Mr. Paulison. I do not know if that person is still with us 
or not, but----
    Senator McCaskill. Well, I would like to know if they are.
    Mr. Paulison. We will.
    Senator McCaskill. And if they are still with you, I would 
like to know if they were reprimanded in writing, if there were 
any actions taken against that employee that inappropriately 
denied access to the IG to important contracts that they had 
the right to. Have you informed your staff in writing about----
    Mr. Paulison. Yes.
    Senator McCaskill [continuing]. Access of the IG?
    Mr. Paulison. Yes.
    Senator McCaskill. And could I get a copy of that?
    Mr. Paulison. Yes.\1\
---------------------------------------------------------------------------
    \1\ The response to Senator McCaskill's request from Mr. Paulison 
with attachments appears in the Appendix on page 101.
---------------------------------------------------------------------------
    Senator McCaskill. OK. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator McCaskill. Good, 
brisk interchange, exchange there. Thank you. General Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, General Lieberman.
    Chairman Lieberman. We have General Skinner here today, 
too. [Laughter.]
    Senator Pryor. I noticed that.
    Chairman Lieberman. We are two previous Attorneys General 
who really miss that title, so that is why we like to use it 
when we can.
    Senator Pryor. That is exactly right. Thank you, Mr. 
Chairman.
    I will be brief this morning, and let me first thank 
Administrator Paulison for coming to Arkansas twice in the last 
2 months--first for tornadoes and second for floods--and, 
really, I am getting very positive feedback from the State and 
local entities in Arkansas for the work that FEMA has done, so 
we appreciate your promptness very much. As you and I have 
talked about there in Little Rock earlier this week, you want 
to change FEMA from a reactive agency into a proactive agency, 
and I think that is actually a good thing. I am not asking for 
your opinion on this today, but my personal view is that FEMA 
should be a Cabinet-level position where, when a crisis 
happens, FEMA has the resources of all the Federal Government 
there. But we can talk about that further.
    But I would like to follow up with a question that Senator 
Landrieu asked a few moments ago about the Stafford Act. She 
asked you for your thoughts on, say, five changes you might 
make to the Stafford Act if you could. But let's talk about 
that just for a moment in more general terms.
    In a general sense, what do you think and why do you think 
we need to change the Stafford Act?
    Mr. Paulison. What I saw in Hurricanes Katrina and Rita, 
and even to a certain extent in Hurricane Wilma, is the lack of 
the flexibility that the FEMA Administrator has in doing some 
things because of restrictions in the Stafford Act. I am 
probably speaking out of turn for the Administration, but I 
feel that there should be much more flexibility to have access 
to the disaster relief fund prior to a declaration being signed 
by the President. There are things that we see that should be 
happening much faster sometimes, although I have to tell you, 
the new process we put in place for declarations has changed 
things from happening from weeks into hours, just like you saw 
what we did in your State and also in Missouri, where we have 
turned those around in a couple hours. Obviously, there was 
significant damage there.
    But if you are looking for general terms, that is what I am 
looking for, a little more flexibility for the next FEMA 
Administrator.
    Senator Pryor. Well, that is good, and I think that it is 
important if a FEMA Administrator comes in and says, hey, we 
feel that the primary statute we work under needs to be changed 
a little bit, I think certainly we need to sit down with you 
and talk about those changes in a more detailed fashion. And I 
would be glad to do that, and I look forward to doing that with 
you as soon as we can.
    Mr. Paulison. And if I can interupt one more time, sorry, 
we also have our National Advisory Council. I have asked them 
to look at the Stafford Act, and they have already set aside a 
subcommittee to look at those changes that they would recommend 
from their views, and these are primarily the users out there.
    Senator Pryor. Great. That is good.
    Let me change gears, if I may. I heard the question a few 
moments ago about FEMA trailers and mobile homes, and I do 
think that is one of the legacy issues you have inherited from 
the previous two administrators, especially from Administrator 
Brown, which is what to do with these mobile homes and trailers 
that you have in the system right now.
    I filed a bill several months ago, S. 2382, that I would 
encourage your staff to examine. We call it the FEMA 
Accountability Act--which I know is a very creative title, but 
we call it the FEMA Accountability Act, and basically what we 
ask you to do is to report back to us and tell us how many 
temporary housing units you need, whatever combination that may 
be, and then go through a process over a period of a year to 
get to that number, and to keep us posted as we go through that 
process.
    I think it is a very common-sense approach. I think 
probably you might consider adopting that as policy instead of 
us passing it. But regardless of that, I would encourage you to 
take a look at it.
    Let me ask, if I may, one question about the scorecard that 
is posted here.\1\ In the mission assignment, you are in the 
``limited to no progress.'' I want to ask about that in a 
moment, but before I do, let me just ask generally about the 
scorecard that the IG did. Do you agree with the conclusions 
and the findings of the IG?
---------------------------------------------------------------------------
    \1\ The chart submitted by Mr. Skinner appears in the Appendix on 
page 59.
---------------------------------------------------------------------------
    Mr. Paulison. No. [Laughter.]
    Senator Pryor. OK.
    Mr. Paulison. We do agree with most of it. We agree that 
they have shown that we have made substantial progress in a lot 
of areas. I don't feel that they had the time to really get in-
depth with some of the things that we have really tried to 
accomplish. But at the same time, this is a great learning tool 
for us.
    Under the mission assignment, that is the one I really do 
not agree with because I feel like that has been one of our 
success stories. When I took over FEMA, we only had 14 pre-
scripted mission assignments. We now have over 230 pre-scripted 
mission assignments with over 30 Federal agencies. So I feel 
like that is a success story.
    I think where the IG was coming from is the implementation 
of those, he feels like there are not enough controls over 
them, and I think there are. But at the same time, I have to go 
back and look at that. If he has seen something I have not 
seen, then we need to look at that very carefully.
    We are having a very good relationship with the IG's office 
of working together with them and using them to help us rebuild 
this organization, particularly in regard to fraud. I mean, 
that is really sending a signal out to people that we are 
serious about this. So it is a good relationship, and when we 
disagree on issues, we have a very professional conversation 
about it.
    Senator Pryor. Mr. Skinner, on the mission assignments, 
tell us why you feel there has been little or no progress.
    Mr. Skinner. Keep in mind this was a snapshot in time. And, 
yes, there has been substantial progress as far as identifying 
what mission assignments there are. But with that comes 
additional responsibilities, and that is managing those mission 
assignments. And we saw no progress whatsoever--or essentially 
no progress whatsoever in FEMA's ability to manage those 
projects.
    If you ask FEMA today how many mission assignments have 
they made, what funds have been obligated, what is the status 
of those funds, and what is the outcome--what service has been 
provided, they cannot give you that answer. They could not give 
us that answer, so, therefore, that is why we said there was 
very limited progress.
    Senator Pryor. Mr. Skinner, is it a matter of resources 
from your viewpoint? Is it a matter of resources within----
    Mr. Skinner. Absolutely. There are three things here that 
are pervasive across the board: And they are resources, 
processes, and technology. They do not have the systems right 
now to be able to track the status of their mission 
assignments. They do not have the resources to manage those 
mission assignments. And they do not have the processes of 
identifying what mission assignments are necessary and who they 
should be passed on to.
    This is pervasive across FEMA. Their management support 
functions are something that have been ignored for years, not 
just in the last 8 years, but since it has been created back in 
1978. Their financial management systems are archaic. Their IT 
systems are stovepiped and archaic, and not integrated and not 
secured. Their HR systems are in poor shape. In terms of their 
property management system, which gets back to their logistics 
and is one of the reasons they got a poor grade there, they 
cannot give you an accurate accountability as to where their 
property is. It is the management support functions. They need 
to invest in those systems and in those processes and hire the 
people needed to support their operational mission.
    Senator Pryor. Good.
    Mr. Chairman, just in closing, I might say that we talked 
about the flood maps, and I know we have already had a question 
about that, and we have met with you and your team about the 
flood maps. That is an important issue not just in Arkansas but 
around the country as this unfolds nationwide. If you look at 
February, there are areas of Arkansas and Missouri that got 16 
inches of rain. There are lots of areas that got 12 inches of 
rain or 10 inches of rain, but there was a band of area that 
got 16 inches of rain. That is also true in Tennessee and, I 
believe, in Kentucky. They got an area band there of 16 inches 
of rain.
    But if you look at the flooding in Arkansas, none of it is 
on the Mississippi River system. It is on the other systems, 
but the Mississippi River flood control system is just 
different. And so that is one of the reasons why we have been 
asking FEMA to look at the differences in the various levee 
systems, not just in the State but around the country, and 
treat those accordingly.
    Thank you.
    Chairman Lieberman. Thanks, Senator Pryor. Thanks very 
much.
    Before I call on Senator Carper, I did want to note for the 
record that at this hour there is a ceremony going on in the 
Capitol to note and commemorate the assassination of Dr. Martin 
Luther King, which occurred, I believe, on April 4. And I had 
thought to terminate the hearing, but if one can imagine this, 
I thought if I could ask Dr. King, he would direct us to 
continue this hearing to fix FEMA. And so that is my judgment, 
but I do it with respect for the ceremony going on.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman. Is it General 
Skinner?
    Mr. Skinner. Mr. Skinner would be fine. I feel like I have 
to be wearing a uniform when you say general.
    Senator Carper. Well, certainly a lot of generals around 
here do not wear uniforms. [Laughter.]
    As an old Navy captain, I feel I am outranked, but I am 
still happy to be here. In the military, we used to be accused 
of--and still are, I guess, in some ways--always training and 
preparing to fight the last war as if it is going to be the 
next war. And with respect to FEMA, we are certainly 
interested, I know my colleague Senator Landrieu is interested, 
and others from the Gulf Coast, to make sure that FEMA is 
prepared to fight the last war if we ever have a hurricane 
incident like Hurricane Katrina again.
    Hopefully, we are not going to see that kind of situation 
again in the Gulf Coast, but some other wars we might be called 
on to fight and to face. And let me just ask, when you think 
about the areas outside of the Gulf Coast, outside of Louisiana 
and Mississippi and all, how do you feel about your 
preparedness for those battles?
    Mr. Paulison. I think we are doing well. Obviously, the 
hurricane States from Texas to Maine are obvious targets for a 
hurricane, but we have the rest of the country to worry about 
also. We are doing catastrophic planning for an earthquake in 
the New Madrid Fault. We are doing catastrophic earthquake 
planning in California.
    Last year, we did a gap analysis of all the States from 
Texas to Maine for hurricanes. That was so successful and gave 
us such good information that we are transporting that across 
the rest of the country this year to do all the other States. 
And the other States are actually asking for it. It covers 
areas like evacuations, sheltering, commodity distribution, 
fuel on evacuation routes, a whole series of things that this 
gap analysis does for us. And it helps the States recognize 
what they need to work on, and it helps us gear our response to 
a particular State, because they are not all the same.
    So I am comfortable that we are doing much better, 
primarily because Hurricane Katrina was a wake-up call for the 
emergency management system around the country. And I see a lot 
more planning going in place. I see a lot more exercises in 
place. And I think this country as a whole is much better off 
than it was just a few years ago.
    Senator Carper. All right. Thank you.
    General Skinner, how long have you been in your current 
position as IG?
    Mr. Skinner. Since July, I believe, 2005.
    Senator Carper. I was interested in reading and heard 
Senator Pryor talking about the IG report where you focused on 
areas where you have seen progress, modest progress, greater 
progress, and where you have seen no progress or inadequate 
progress. And he asked Mr. Paulison to comment on whether or 
not there are any areas where he disagreed, and we just had a 
little discussion about one area where he thought that you did 
not give him enough credit. Are there any, Mr. Paulison, where 
you think they gave you the benefit of the doubt or maybe 
graded you too high as opposed to too low?
    Mr. Paulison. I do not think he scored us too high 
anywhere. [Laughter.]
    This is actually a very good document for us because it 
causes us to go back and look at ourselves again; and where we 
and the IG office may disagree on a particular level, it forces 
us to look at it and make sure that we are where we think we 
are. And so it is a good--there is no dog fight over this. Yes, 
we may disagree on how they rated us in a certain area, but it 
is a great document for us.
    Senator Carper. Senator McCaskill may have gotten to this 
earlier. I describe myself as a recovering governor. She is a 
recovering State auditor. But in State government in Delaware 
we would have the State auditor's office come in and audit the 
various State agencies throughout the course of the year. We 
would also have exit meetings where we would go over what went 
well, what did not go well.
    I am sure that there is a back-and-forth, I presume, while 
the IG is doing their work, coming to conclusions about the 
work, and maybe submitting their report and recommendations and 
findings. Just describe that back-and-forth, the communication 
that occurs between, in this case, you, Mr. Paulison, and the 
IG. And do you find it constructive or not? How could it be 
more constructive?
    Mr. Paulison. I think every conversation we have had with 
them is very constructive. They are looking at us from a 
different perspective than we are looking at ourselves. We have 
done some internal introspective stuff also. We did assessments 
on 17 of our business practices. We did that ourselves. We have 
found fraud issues also that we have turned over to the IG and 
asked him to investigate for us.
    So we have a good relationship. It is not a cozy 
relationship, and it should not be a cozy relationship. But it 
is a professional relationship. They have a great staff. They 
have people on their staff who used to work at FEMA, so they 
know the inner workings and that helps us. So when we try to 
explain things, they already get it. So I think the back-and-
forth is very positive for both of us.
    Senator Carper. All right. Thank you.
    General Skinner, do you want to comment?
    Mr. Skinner. Yes. During the course of any review, the 
dialogue is continuous, I mean, from the day of the entrance 
conference to the day of the issuance of the report. And we are 
constantly trying to assimilate all the information that 
various people and various officers at headquarters, in the 
region, as well as other stakeholders, are providing to us.
    Now, I understand that in this review, one of the things we 
have to recognize is we did not go into the weeds here. We did 
not try to do a comprehensive assessment, because if we did, it 
would take us months and months and a lot more resources than 
we have available right now to dedicate to this particular job. 
So we tried to do a 30,000-foot snapshot of progress being 
made, and we relied on information from a variety of sources, 
not just FEMA's top management.
    So where there are disagreements, those are essentially 
based on input that we are getting from other sources, that is, 
other stakeholders as well as staff people with the boots on 
the ground who are out there. And that helped us formulate our 
opinion in this scorecard.\1\
---------------------------------------------------------------------------
    \1\ The chart submitted by Mr. Skinner appears in the Appendix on 
page 59.
---------------------------------------------------------------------------
    Senator Carper. Good. Well, we are pleased to hear that 
some progress is being made, and I think a lot depends on the 
rank-and-file in an agency or in a military unit or whatever to 
make progress. But we also value highly the leadership, and I 
commend you, Mr. Paulison, for your leadership.
    As you know, we have firefighters who are gathering in our 
Nation's capital from all over the country, and a bunch of them 
are coming from Delaware, and you have a lot of friends in the 
First State. And I heard Senator Pryor say in his questions, he 
mentioned that you had been down to Arkansas a couple times in 
the last several months. Fortunately, we have not had any 
calamities of that nature in the First State so we have not had 
to call on you to come, but we know if we did that you would, 
and we appreciate that. Thank you both very much for your 
service and for being here today.
    Chairman Lieberman. Thanks very much, Senator Carper.
    Just a couple more questions from me, gentlemen. Chief 
Paulison, let me ask you to go back to the most searing images 
that remain in our mind from Hurricane Katrina, which is the 
failure to evacuate. And I know you talked earlier about how 
you have been proactive in the Texas hurricane, lining up 
buses, etc. I want you to talk a little bit more about what we 
have changed now to make sure that would not happen.
    But then the second part, because I presume there may be 
catastrophes that will strike so quickly that you will not be 
able to do that advance preparation, how do we avoid the human 
calamity and really inhuman conditions that people in New 
Orleans had to go through in the Superdome?
    Mr. Paulison. The no-notice events are the toughest to deal 
with, like you mentioned. There are hurricanes coming in. We 
cannot preposition equipment, people, supplies, buses, 
ambulances, aircraft, all of those types of things, and that is 
what we are going to do. The no-notice events are much more 
difficult. That is where we fall back on the premise that all 
disasters are local. And so we have to do a better job of 
making sure the local community is prepared, the State is 
prepared, and we are prepared to respond much more quickly.
    Chairman Lieberman. That is a really good point. So how do 
you do that? In other words, in the other metropolitan areas of 
the country, do you try to get the local officials or State 
officials prepared for a facility that can accommodate a large 
number of people in a catastrophe?
    Mr. Paulison. There are a couple things. One, we have 
worked with the Red Cross to put together a shelter registry 
that we never had before, so we have a pretty good handle on 
where the shelters are.
    Second, when they are identified, the Red Cross does a 
survey to see if they meet certain standards for wind loads and 
things like that. We are working with Florida right now. They 
want to go back and retrofit schools, and so we are working 
with them on that wind load factor to make sure those schools 
will be a safe place to house people should they call for an 
evacuation.
    Also, in the emergency management performance grants, this 
year we have mandated that the States set aside at least 25 
percent of those dollars for planning. One of the things we saw 
in our gap analysis is we saw a lack of planning, and as we are 
going across the rest of the country, we want to make sure that 
every State and every community has the best plans possible. 
That was not very popular. We got a lot of pushback from it. 
But I am sticking by that because I think it is important that 
they spend those dollars to have some very robust planning 
capabilities at the State and local level across the country. 
That will resolve a lot of the issues that you are talking 
about because it forces them to really look at their disaster 
plan and assess adequacy. Are the shelters in place? Do they 
have good evacuation plans in place? What are they going to do 
with people? How are they going to house them for the short 
term until the State and the Federal Government can move in?
    Chairman Lieberman. OK. That is reassuring. How about the 
ice? I do not know if there is a direct answer except to say 
that it was so ridiculous that it can never happen again. But 
how are you going to make sure it does not?
    Mr. Paulison. We are not going to--we are not in the ice 
business anymore. I made that statement yesterday at the 
hurricane conference yesterday in Orlando. That is not a life-
saving commodity for most people. We will provide it for people 
who have a medical need, but we are not going to be handing out 
bags of ice along the route.
    I know you did not ask this question, but one of the big 
issues that we have to do in this country is get back to taking 
on personal preparedness and personal responsibility for taking 
care of ourselves and our families for the first 3 or 4 days. 
Some people cannot. Those are the ones government should be 
taking care of. But most of us around this country can prepare 
our homes and our families for a catastrophic event, having 
food, water, and ice.
    At my home, we take gallon water jugs and put them in the 
freezer June 1, and we have that ice. If the power goes out, at 
least we have the ice for a few days, and then we can drink the 
water when it melts.
    Those are the types of things we are asking people to do, 
and the State emergency managers and local emergency managers 
are picking up on that, and they are pushing that also in their 
own communities.
    Chairman Lieberman. Are there public education programs 
that are encouraging people to do that? Post-September 11, 
2001, we have a big container in our basement of a lot of stuff 
that we would need.
    Mr. Paulison. We do. We have Ready.gov, and I was actually 
in Arkansas, and we got off the plane and saw a big banner for 
Ready.gov, make sure, is your family ready?
    Chairman Lieberman. Right.
    Mr. Paulison. So we do have literature and also website 
access to that type of stuff.
    Chairman Lieberman. In your review of Hurricane Katrina, 
did you make any other decisions, like the one about ice when 
you said we should not be in the business, that there were 
certain things that FEMA did then that really were not 
appropriate Federal responsibilities?
    Mr. Paulison. I do not know. Housing is a big issue. It is 
a Federal responsibility. That long-term housing really belongs 
to HUD, and we now have an agreement with them for the Disaster 
Housing Assistance Program (DHAP) to take over that longer-term 
housing. But there were so many lessons learned in Hurricane 
Katrina that went wrong that we have been working on them to 
make sure they do not happen again. I do not know that we have 
captured all of them, but we have sure gone a long ways.
    The horrific thing that people in Louisiana went through, 
and Mississippi and Alabama--particularly Louisiana, though--
should not happen again in this country, and I am going to make 
sure on my watch it does not.
    Chairman Lieberman. Amen. Thank you. Senator Landrieu.
    Senator Landrieu. Thank you. A picture speaks a thousand 
words. I was not sure we would have this chart.\1\ Mr. 
Chairman, if you do not mind, I brought my own. It is just a 
different way of saying that while we have made progress, you 
can see the column to the right is without a mark because there 
has been no substantial progress made; little, modest, 
moderate, but nothing substantial.
---------------------------------------------------------------------------
    \1\ The chart submitted by Senator Landrieu appears in the Appendix 
on page 98.
---------------------------------------------------------------------------
    In addition, another way--if our staff would put up the 
second chart--to bring again the point of urgency, is that we 
have made zero substantial progress.\2\ And while I am happy to 
hear the testimony today that additional resources have been 
requested from the Administration, I am particularly pleased to 
hear that everything you have asked for, they have provided 
because that has not been my experience with this 
Administration. But I am pleased to hear that. But I still have 
a few questions.
---------------------------------------------------------------------------
    \2\ The chart submitted by Senator Landrieu appears in the Appendix 
on page 99.
---------------------------------------------------------------------------
    First, I accept the testimony today that both of you agree 
that the Stafford Act has got to be rewritten to deal with a 
catastrophic disaster. I agree with it. But I do not agree that 
we have to wait to make any changes until that is done. So I 
want to say for the record that there have been examples of 
very modest suggestions that our offices and others have made.
    For instance, we have asked FEMA to help with the housing 
thing by letting landlords use their money to repair rental 
units. FEMA have said no, they do not have the authority to do 
that; the only thing they can use is trailers. Yet when we 
requested legislative authority to do it, FEMA and HUD have 
opposed that request.
    When we asked if Louisiana does not have the authority to 
allow us to use Hazard Mitigation funds to elevate flooded 
homes, which was part of our plan, we asked, yet FEMA and 
Homeland Security have said no, no, no, until finally, 
begrudgingly yes, but it is still held up on the floor of the 
Senate by a Senator who does not agree. Now, that is not your 
fault, but it took you all 2\1/2\ years to basically start 
saying, well, maybe.
    Then we asked FEMA to offer case management retroactively. 
You said it is against the law. We have tried to change the 
law. You all object.
    So my point is since we all agree that the law does not 
work, can we all agree today to start fixing the law? And I do 
not think, Mr. Chairman, we have to wait until every study is 
done, every paragraph is written, everything is vetted, looked 
at, reviewed, and passed at one time. My suggestion is when it 
is clear that there is something that could be and should be 
changed, that we do it, Mr. Chairman, as soon as possible. And 
this is what I want to ask. Will we begin to change things as 
it comes apparent to us that it should be fixed? Or are you 
testifying today that you are going to wait until it can all be 
done at once?
    Mr. Paulison. No, I do not think that is necessary. I do 
agree that if we see things that are appropriate that we can 
work with you to help change, then we will work with you to do 
that. We really want the best response we can give out of this 
organization, and I am talking about--it should not be just 
this organization. It should be across the board at the local, 
State, and the entire Federal Government to do that.
    I know we have disagreed on some of the issues, but I think 
both of our goals are to provide the best service we can to the 
people out there, and that is what we are trying to do. We have 
been working with the State and with the parishes lately. I 
have sent my deputy director down there twice now. He is going 
down every 3 weeks, meeting with the governor's staff, meeting 
with the parish presidents, to see how we can better spur this 
thing along to come up with some of----
    Senator Landrieu. And I thank you because those----
    Mr. Paulison [continuing]. Those innovative ideas.
    Senator Landrieu. I thank you, and not to cut you off, I 
thank you because those meetings have been very effective, and 
the feedback that I am getting from our local officials, 
finally there is somebody with power and authority that is 
listening and helping us work through this morass.
    But I want to ask you, Mr. Skinner, is it your opinion that 
when we identify, whether it is this Committee, the House 
Committee on Homeland Security, FEMA, or HUD, some things that 
could be changed given that everyone now seems to agree that 
the Stafford Act is not in itself adequate, would you suggest 
that we try to modify it? Or is your suggestion that we wait 
until we can do it all at once?
    Mr. Skinner. No, we most certainly should not wait and do 
it all at once. There are a couple things here at play. One is 
the interpretation of the Stafford Act. I think if you take a 
very close look, that maybe we are overinterpreting the 
requirements or the mandates of the Stafford Act. For example, 
prepositioning supplies, we always said you cannot do that 
under the Stafford Act. Well, after Hurricane Andrew, we 
started doing it.
    Now, Chief Paulison is asking maybe we need--it would be 
helpful to have legislative language that will legitimize that, 
but we have interpreted the law to say that we are in a 
position to preposition and use disaster relief funds when we 
think there is an imminent danger or an imminent disaster about 
to strike our country. We did not need to change the Stafford 
Act. What we might want to do is go back and start thinking how 
we can reinterpret what our requirements are and how we can 
best utilize the Stafford Act.
    Now, there are areas, and I think a good example would be--
and I know this is an issue that has come up very often in New 
Orleans and in Louisiana--cost reimbursement. We are saying you 
must first spend your funds before we can reimburse you. I 
question that interpretation. I think what we can say is that 
we can advance you funds so that you can get the work started 
and submit to us reports, and then we will----
    Senator Landrieu. OK. And, Mr. Chairman, let me just 
finalize on this point----
    Chairman Lieberman. Go right ahead.
    Senator Landrieu [continuing]. If I could, so that you 
could hear me say this. This point gets to the heart of this 
issue. Let's just not take New Orleans, but let's take St. 
Bernard Parish, 67,000 people. Every home was destroyed in St. 
Bernard Parish. The entire parish went underwater. The place 
where the local officials--the sheriff, the parish president--
were gathered--everyone had evacuated. They had almost a 100-
percent evacuation out of St. Bernard. It was not 100 percent 
but it was close--95 percent out of St. Bernard. Some people 
had to stay back, the officials, and they almost drowned in 
their building. The sheriff had to swim out of the second floor 
of his building and saved his deputies. So get a clear picture 
of this.
    The Federal response to this particular parish under the 
law that we are operating under now was this; after the water 
went down and the sun came up and everything was destroyed, 
like Sodom and Gomorrah, this was the Federal Government's 
response: When you can get your plan together, of course, 
finding your city planners and your architects that have been 
scattered all over, and you all can get a plan together, tell 
us exactly how you want this parish rebuilt, then submit 15 
copies of well-typed-out forms that can document everything you 
lost, from pencils to screwdrivers to hammers, then after that 
go find some money to rebuild it, and we will reimburse you.
    That is what we are operating under today. So when I hear 
people criticize my people in St. Bernard, I do not think my 
people in St. Bernard could do anything wrong that would 
overshadow the idiocrasy, the stupidity of that system.
    So when I see the chart at zero, all that says to me is 
that the 67,000 people that lost their homes in St. Bernard--
67,000 still, Mr. Chairman, do not have--2\1/2\ years later--
any real plan that makes sense to them. And let me be clear. I 
am not going to stop talking about this until it is fixed or 
until I am not sitting in this chair any longer. So we will 
just keep on going. Thank you.
    Chairman Lieberman. Thanks, Senator Landrieu.
    Look, the IG report shows that progress is being made in 
FEMA's ability to deal with catastrophic events like Hurricane 
Katrina. But as the emotion and truth with which Senator 
Landrieu speaks, we are still living with the painful 
consequences; that is, the people of the Gulf Coast, more 
particularly New Orleans, are still living with the painful 
consequences of the catastrophe that was Hurricane Katrina, and 
the inability of the Federal, State, and local governments to 
respond adequately at that time. So Senator Landrieu speaks 
passionately and eloquently for her people because they are 
suffering still, and it is our responsibility to listen to her 
and try to do what we can both do, as rapidly as possible, to 
alleviate that suffering, but also to continue the progress to 
make sure the next time that catastrophe strikes, we are a lot 
better prepared than we were in Hurricane Katrina. And from the 
IG's report, I take encouragement that will be the case.
    But the journey goes on, and I know, Chief Paulison, you 
feel that with a special sense of urgency. So we look forward 
to working with you in the months ahead. Thank you, General 
Skinner, for an excellent report, and we obviously look forward 
to working with you.
    We are going to leave the record of this hearing open for 
15 days. There are some other Members of the Committee that 
want to submit some questions to you in writing, and, of 
course, that gives you the opportunity for 15 days to submit 
additional comments as well.
    With that, I thank you. The hearing is adjourned.
    Mr. Paulison. Thank you.
    [Whereupon, at 12:04 p.m., the Committee was adjourned.]












                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
